Roderick and Solange MacArthur Justice Center
718 7th Street NW
Washington, DC 20001
O 202 869 3434
F 202 869 3435

Amir H. Ali
Supreme Court & Appellate Counsel
amir.ali@macarthurjustice.org
O 202 869 3434
F 202 869 3435

macarthurjusticecenter.org

February 20, 2020
VIA HAND DELIVERY
Scott Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re: Hunter v. Cole, Case No. 19-753
Dear Mr. Harris,
The petition for writ of certiorari in this matter was placed on the docket on December 12,
2019. Respondents’ brief in opposition is due on March 2, 2020.
Pursuant to Supreme Court Rule 30.4, Respondents respectfully request a 30-day extension
to file their response, to and including April 1, 2020. Due to undersigned counsel’s workload and
pressing court deadlines in other matters, this additional time is required to thoroughly research
and prepare a response to the petition. Respondents have not previously sought an extension.
Very truly yours,

Amir H. Ali
Counsel for Respondents
cc: James T. Jeffrey, Jr. (via email and U.S. Mail)

